NELSON MULLINS RILEY & SCARBOROUGH LLP
ATTORNEYS AND COUNSELORS AT LAW

Brandon O. Moulard
T 404.322.6240

Atlantic Station
201 17th Street, NW | Suite 1700
Atlanta, GA 30363
T 404.322.6000 F 404.322.6050

brandon.moulard@nelsonmullins.com

nelsonmullins.com

August 31, 2021
VIA FEDERAL EXPRESS TRACKING NO. 2831 7760 9135
Mr. Scott S. Harris
Clerk of the Supreme Court
United States Supreme Court Building
One 1st Street NE, Room 30
Washington, DC 20543-0001
Re:

Nathaniel Borrell Dyer v. Atlanta Independent School System
No. 21-213

Dear Mr. Harris:
Pursuant to Supreme Court Rules 30.2 and 30.4, this letter is written on behalf of
Respondent Atlanta Independent School System to request a thirty-day extension of time
to file a response in opposition to the Petition for a Writ of Certiorari in the abovereferenced matter. The Petition was filed on August 5, 2021, and docketed on
August 13, 2021. The response in opposition to the Petition is currently due on
September 13, 2021.
The Petition advances various complex arguments that concern purported
conflicts between the decisions of the lower courts and previously rulings by this Court,
the Eleventh Circuit Court of Appeals, and other courts of appeals. Respondent has
determined that additional time beyond the thirty-day deadline provided in Rule 15.3 is
necessary to review the assortment of authorities cited in the Petition, evaluate
Petitioner's arguments, and prepare an appropriate response.
Should you have any questions or concerns about this request, please do not
hesitate to contact me at (404) 322-6240 or brandon.moulard@nelsonmullins.com.
Sincerely,

Brandon O. Moulard
Counsel for Respondent
BOM:jw
cc:
Mr. Nathaniel Dyer (via email only)

